<html>
<title> - THE SECOND CHANCE ACT: STRENGTHENING SAFE AND EFFECTIVE COMMUNITY REENTRY</title>
<body><pre>[Senate Hearing 111-878]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 111-878
 
   THE SECOND CHANCE ACT: STRENGTHENING SAFE AND EFFECTIVE COMMUNITY 
                                REENTRY

=======================================================================




                                HEARING

                               before the

                       COMMITTEE ON THE JUDICIARY
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 21, 2010

                               __________

                          Serial No. J-111-101

                               __________

         Printed for the use of the Committee on the Judiciary




                  U.S. GOVERNMENT PRINTING OFFICE
64-378                    WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001




                       COMMITTEE ON THE JUDICIARY

                  PATRICK J. LEAHY, Vermont, Chairman
HERB KOHL, Wisconsin                 JEFF SESSIONS, Alabama
DIANNE FEINSTEIN, California         ORRIN G. HATCH, Utah
RUSSELL D. FEINGOLD, Wisconsin       CHARLES E. GRASSLEY, Iowa
ARLEN SPECTER, Pennsylvania          JON KYL, Arizona
CHARLES E. SCHUMER, New York         LINDSEY GRAHAM, South Carolina
RICHARD J. DURBIN, Illinois          JOHN CORNYN, Texas
BENJAMIN L. CARDIN, Maryland         TOM COBURN, Oklahoma
SHELDON WHITEHOUSE, Rhode Island
AMY KLOBUCHAR, Minnesota
AL FRANKEN, Minnesota
            Bruce A. Cohen, Chief Counsel and Staff Director
             Brian A. Benzcowski, Republican Staff Director



                            C O N T E N T S

                              ----------                              

                    STATEMENTS OF COMMITTEE MEMBERS

                                                                   Page

Feingold, Hon. Russell D., a U.S. Senator from the State of 
  Wisconsin, prepared statement..................................   167
Grassley, Hon. Charles, a U.S. Senator from the State of Iowa....     2
Leahy, Hon. Patrick J., a U.S. Senator from the State of Vermont.     1
    prepared statement...........................................   172

                               WITNESSES

Duran, Le'Ann, Reentry Project Director, Justice Center, Council 
  of State Governments, New York, New York.......................     5
Husock, Howard, Vice President, Policy Research, Manhattan 
  Institute for Policy Research, New York, New York..............    12
Muhlhausen, David, Senior Policy Analyst Center for Data 
  Analysis, The Heritage Foundation, Washington, DC..............    10
Pallito, Andrew A., Commissioner, Vermont Department of 
  Corrections, Waterbury, Vermont................................     3
Rodriguez, Sol, Executive Director, Open-Doors, Providence, Rhode 
  Island.........................................................     8

                         QUESTIONS AND ANSWERS

Responses of Andrew A. Pallito to questions submitted by Senator 
  Cardin.........................................................    23
Responses of Sol Rodriguez to questions submitted by Senator 
  Cardin.........................................................    31

                       SUBMISSIONS FOR THE RECORD

Duran, Le'Ann, Reentry Project Director, Justice Center, Council 
  of State Governments, New York, New York, statement............   149
Husock, Howard, Vice President, Policy Research, Manhattan 
  Institute for Policy Research, New York, New York, statement...   169
Muhlhausen, David, Senior Policy Analyst Center for Data 
  Analysis, The Heritage Foundation, Washington, DC, statement...   174
Pallito, Andrew A., Commissioner, Vermont Department of 
  Corrections, Waterbury, Vermont, statement and attachments.....   188
Robinson, Laurie E., Assistant Attorney General, Office of 
  Justice Program, statement.....................................   209
Rodriguez, Sol, Executive Director, Open-Doors, Providence, Rhode 
  Island, statement..............................................   213


   THE SECOND CHANCE ACT: STRENGTHENING SAFE AND EFFECTIVE COMMUNITY 
                                REENTRY

                              ----------                              


                        WEDNESDAY, JULY 21, 2010

                                       U.S. Senate,
                                Committee on the Judiciary,
                                                     Washington, DC
    The Committee met, pursuant to notice, at 2:44 p.m., Room 
SD-226, Dirksen Senate Office Building, Hon. Patrick J. Leahy, 
Chairman of the Committee, presiding.
    Present: Senators Cardin, Whitehouse, Franken, Sessions, 
and Grassley.

OPENING STATEMENT OF HON. PATRICK J. LEAHY, A U.S. SENATOR FROM 
                      THE STATE OF VERMONT

    Chairman Leahy. First off, I apologize for being late. I 
was just telling Senator Grassley, as I told Senator Whitehouse 
outside, that another Senator and I were on the subway, chit-
chatting, waiting for the subway car to come; great, 
interesting conversation; suddenly realized there was no subway 
car. It had broken down. So we hoofed it over. So I apologize.
    Today, we are going to consider the important issue of how 
best to ensure that when people get out of prison, they become 
productive members of society rather than turning to a life of 
crime. And many states are making great strides with innovative 
prisoner reentry programs. We are going to hear about some of 
those efforts today.
    In 2008, we passed the Second Chance Act to give Federal, 
state and local governments additional tools to help inmates 
more successfully get back into their communities upon release, 
and we are going to hear about what impact it might have.
    It is interesting. The Senator I was talking with is from a 
large state and I think he would probably consider himself a 
Conservative Republican and was strongly backing Second Chance 
and the fact that if we want to get people back into 
employment, there has to be some way to do that.
    We passed the bill, after a lot of work and compromise, 
unanimously. Next year, it will need to be reauthorized and I 
hope we have the same bipartisanship again.
    I worked with Senator Brownback and Senator Specter and 
then Senator Biden to pass it the first time. I know that 
Senator Cardin has a strong interest in this area. Senator 
Whitehouse has shown a great deal of leadership on prison 
reform and reentry and he is helping at today's hearing.
    We have passed several new criminal laws, both in Congress 
and the states, creating more and longer sentences for more 
people. Now, a number of the states are realizing that costs 
them a lot of money. California, for example, is facing some 
horrible problems.
    There are currently more than 2 million people in jail or 
prison. More than 13 million people spend some time in jail or 
prison each year.
    I know from my own experience as a prosecutor, most of 
these people sometimes return to our communities. Now, what 
kind of experience they have in prison, how we prepare them to 
rejoin society, is actually going to affect the communities we 
live in. It is going to affect them a great deal.
    Before we passed the Second Chance Act, Vermont and other 
states were implementing innovative programs to build safer and 
stronger communities by ensuring that people in prison receive 
services to help them become productive members of society when 
they come out and not go back into crime.
    The Second Chance Act builds on this important work. It 
also says, that state and local corrections agencies and 
nonprofits, educational, institutional service providers, 
families, that if they are going to have a grant, they have to 
demonstrate measurable, positive facts, including a reduction 
in recidivism.
    It takes an important step toward the goal of reducing the 
nationwide recidivism rate of 66 percent. That, of course, will 
decrease the annual nationwide $8.2 billion cost of 
incarceration.
    Now, the Vermont Department of Corrections and many others 
in Vermont are strongly supporting this crucial piece of 
legislation. It gives me a sense of confidence, when I go home 
to Vermont, that it is making our state safe and those others 
who are doing it around the country and making the country 
safer.
    And this is not in any way a partisan issue. We have a 
Republican Governor, myself, we both agree with this, but 
nobody even looks at it as a Republican or Democratic issue. 
They just look at it as a sensible one.
    I know that Commissioner Andrew Pallito is here. He has had 
great success helping reentry programs, and I look forward to 
hearing from him.
    Also, I welcome Le'Ann Duran from the National Reentry 
Resource Center; Sol Rodriguez, Open Doors of Rhode Island, we 
are going to hear how that worked in Rhode Island.
    I have no compunction against tough sentences when it fits 
the crime, but I also want to know that some days the jailhouse 
door is going to open and we ought to have somebody come out 
who can be in society.
    [The prepared statement of Chairman Leahy appears as a 
submission for the record.]
    Chairman Leahy. Senator Grassley, did you want to add 
anything?

  STATEMENT OF HON. CHARLES GRASSLEY, A U.S. SENATOR FROM THE 
                         STATE OF IOWA

    Senator Grassley. First of all, I am only going to be able 
to be here until 3. So I will be able to hear a couple of the 
witnesses. And I want to be on top of this issue, because, 
obviously, keeping people behind bars if it is not necessary is 
very much a costly product that hits states worse than it hits 
the Federal Government, but all taxpayers are paying more.
    And the extent to which everybody has something to 
contribute to our society, we ought to encourage that 
contribution and not to have the recidivism rate that we have 
is very, very important.
    I am interested in knowing how the programs are working and 
I'm interested in knowing what other ideas might be out there.
    Thank you for this opportunity.
    Chairman Leahy. The first witness, Andrew Pallito, is the 
current Commissioner of the Vermont Department of Corrections, 
a role he has held since 2008. He previously served as deputy 
commissioner, as management executive overseeing the 
department's administrative, financial, information technology 
and training needs.
    He serves on the Vermont Criminal Justice Training Council, 
which oversees the training of individuals from all law 
enforcement agencies in Vermont.
    He began working in Department of Corrections in 2001, did 
9 years serving other parts of the Vermont City Government, 
including the Agency of Human Services.
    He is a graduate of the Vermont Leadership Institute, 
received his bachelor's degree from St. Peter's College.
    He is joined by his wife today. And I will just mention on 
the side, she was born in Barre, Vermont, the same place my 
father was born.
    Mr. Pallito, please go ahead.

     STATEMENT OF ANDREW A. PALLITO, COMMISSIONER, VERMONT 
         DEPARTMENT OF CORRECTIONS, WATERBURY, VERMONT

    Mr. Pallito. Mr. Chairman and fellow members, thank you for 
the opportunity to speak to the Committee today regarding the 
issue of offender reentry and for the opportunity to showcase 
some of the innovative work that we are doing in Vermont.
    Our work in engaging community partners in offender reentry 
has been brought on by an explosive growth in incarceration. In 
1990, Vermont had roughly one-third the number of offenders 
that it has in 2010, representing an increase of a staggering 
160 percent increase in incarceration.
    To manage this growth over the past 20 years, the state has 
built several new correctional facilities and today houses 
roughly one-third of its offenders in out-of-state private 
contracted facilities.
    This unprecedented increase has placed an enormous burden 
on the state's general fund. The Department of Corrections' 
annual percentage growth continues to take a larger and larger 
share of the state's available resource and has outstripped our 
ability as Vermonters to sustain many other programs.
    There is good news, however, in that the annual rate of 
growth has slowed. This, I believe, has been accomplished by a 
number of new strategies which affect the number of offenders 
coming into the system, such as diversion programs and the 
manner in which offenders are released from facilities.
    Over the past few years, my department has been engaging 
and educating communities throughout the state about the 
importance of solid release planning for all offenders, 
including those with very violent histories.
    What differentiates Vermont's response to reentry from 
traditional approaches is the philosophical foundation of 
restorative justice principles and community involvement.
    By providing returning offenders with high measures of 
support and accountability, fostering meaningful participatory 
community connections, and leveraging the informal social 
influence exercised by family and neighbors, we effectively 
complement best correctional practice for a more successful 
reentry process for offenders.
    The support and accountability derived from these 
relationships increases offender investment and opportunity. We 
have seen this with our work with Circles of Support and 
Accountability, also known as a COSA. A COSA is a group of five 
or so individuals who are trained in the need areas of 
particular offenders and who, in turn, hold an offender 
accountable while assisting and supporting them with the 
reentry process.
    COSAs are coordinated by local municipal community justice 
centers. There are 12 such community justice centers located 
throughout the state.
    Increased citizen participation has resulted in diminishing 
public resistance toward offender reentry. This dramatically 
improves an offender's potential for success, and can achieve a 
reduction in recidivism.
    Complementing the COSA process is the offender 
responsibility plan, also known as the ORP. The ORP is our case 
management system for coordinating, delivering and tracking the 
range of treatment and work readiness development services 
specific to the offender's strengths and needs.
    This document evolves over time to reflect the offender's 
progress, including pre-release services such as vocational 
assessment, housing readiness, benefits eligibility, 
transitional planning, and post-release supervision and 
services, behavioral assessment and therapy, substance abuse 
treatment, employment, parenting, and other family obligations.
    Over the past few years, we have formed critical new 
partnerships with offender-serving agencies throughout Vermont. 
These include the Department of Labor, the Social Security 
Administration, the Veterans Association, the judiciary, and 
other Agency of Human Services such as the Economic Benefits 
Division, the Office of Child Support, the Department of 
Health, and the Office of Alcohol and Drug Abuse.
    Through these initiatives, we have fundamentally changed 
the reentry service delivery system in Vermont. We have 
incorporated the leveraging of stakeholder relationships on 
both an interagency and interpersonal level in to our case 
planning and reentry practices.
    Many of the individuals who have reentered with the 
assistance of community-based support cite the critical role 
these services have played in allowing them to get their 
footing and get out of prison.
    Targeted reentry services, such as employment and housing 
assistance, have also stemmed directly from our community 
justice reentry program. The organization of our own department 
has started to grow and recognize and appreciate how work is 
enhanced through direct citizen involvement in the reentry 
process.
    We have begun to change the conversation about returning 
offenders in local communities from how can we keep them out of 
our town to how can we make them a part of our community so 
they will not do harm again?
    During these difficult fiscal times, the Vermont 
legislature has recognized the importance of this work and 
recently has appropriated funding for these community-based 
strategies.
    Challenges we continue to face are lack of funding to 
support ongoing efforts and complement the state funding. In 
addition, we have not been resourced to conduct an empirical, 
longitudinal study to produce data to complement the anecdotal 
evidence that already exists.
    Submitted along with my testimony is documentation on two 
cases of higher level offenders who have been successfully 
reintegrated into the community using the COSA process.
    In closing, I want to thank you for allowing me the 
opportunity to address this Committee and I also want to thank 
you for the partnership that we have enjoyed with the Federal 
Government in the past that spawned this program for us.
    Thank you.
    [The prepared statement of Mr. Pallito appears as a 
submission for the record.]
    Chairman Leahy. Thank you. Well, as you know, in a small 
state like ours, we all have to work together. Thank you.
    Our next witness, Le'Ann Duran, is the Reentry Project 
Director of the Council of State Governments Justice Center. 
She oversees the center's efforts to facilitate smooth and 
successful transition of individuals from prisons back to their 
communities. It includes managing the National Reentry Resource 
Center, which provides assistance to Second Chance Act grantees 
and applicants.
    Prior to that, she was administrator of the Michigan Office 
of Offender Reentry. That program, the Michigan Prisoner 
Reentry Initiative, was nationally recognized for its 
effectiveness, its comprehensive approach to reentry.
    She received her bachelor's degree from Texas Tech 
University, master's degree from Colorado State.
    Please go ahead.

 STATEMENT OF LE'ANN DURAN, REENTRY PROJECT DIRECTOR, JUSTICE 
    CENTER, COUNCIL OF STATE GOVERNMENTS, NEW YORK, NEW YORK

    Ms. Duran. Thank you, Chairman Leahy and members of the 
committee, for holding this hearing on Second Chance Act. My 
name is Le'Ann Duran. I am the Director of the National Reentry 
Resource Center.
    When Second Chance was passed in 2008, I had been working 
for 5 years to design and implement a comprehensive reentry 
effort, called the Michigan Prisoner Reentry Initiative.
    Second Chance came at a critical time in Michigan's work. 
For the first time, there was Federal legislation and a clear 
message from Congress that improving reentry policy and 
practice is vital to public safety. This message fueled public 
and legislative support for a reentry initiative which enhanced 
public safety by reducing recidivism and ultimately allowed the 
state to reduce its prison population by 12 percent, saving an 
estimated $900 million.
    The establishment of a National Reentry Resource Center was 
an important step to advance the reentry field. Congress and 
the Bureau of Justice Assistance are strengthening the 
government, community and faith-based organizations receiving 
Federal funds to ensure the most effective use of those 
investments.
    Following a highly competitive process, the Bureau of 
Justice Assistance was awarded the contract for the National 
Reentry Resource Center to the Council of State Governments 
Justice Center.
    We have learned a great deal from our work with Second 
Chance grantees, though it is still very early in the process. 
First off, Second Chance programs have been incredibly popular. 
In the first year of the program, over 950 applicants applied 
for Second Chance funding. Of those applications, 67 grantees 
were funded in 2009, spanning 31 states.
    This demand establishes Second Chance as one of the most 
competitive justice programs, with an only 7 percent funding 
rate in the first year. And based on the number of calls we 
fielded regarding 2010 programs, demand for funding is likely 
to grow.
    Two program types were funded in 2009. The first category, 
demonstration projects, were for state, local and tribal 
governments interested in advancing their reentry initiatives. 
The city of Baltimore received a demonstration grant and is 
implementing a project for 60 youth identified as high risk. 
The program primarily focuses on delivering enhanced case 
management.
    In Oklahoma, 200 high risk men returning to Oklahoma City 
will be given the opportunity to live in a transitional 
facility, where they will receive the treatment and programs 
they need to be successful upon release.
    The second category, mentoring grants, is available to 
nonprofit organizations to advance prosocial support.
    In Texas, Volunteers of America is using their grant to 
work with incarcerated mothers and will provide one-on-one 
mentoring and case management services.
    The Resource Center and its partners have designed three 
core strategies to respond to grantee needs, as well as the 
field at large. First, we are creating a number of Web-based 
tools to help practitioners help themselves.
    Second, we are building a more cohesive, knowledgeable 
reentry field by facilitating peer-to-peer learning. And third, 
we are providing individualized assistance to grantees to 
respond to their emerging needs.
    We are also working with the Urban Institute to develop an 
online What Works library for practitioners.
    So the big question is, how is it going? While still very 
early in the process, the program is thriving, both in the 
immense demand for grants, the establishment of a resource 
center for the field, and the early accomplishment by the first 
cohort of grantees.
    It is apparent there is good work happening and a growth in 
the number of agencies that are working together to address the 
needs of this population.
    It is an exciting time to be working in the field of 
reentry, which has existed for barely more than a decade, but 
is vibrant with innovation.
    Also, through this process, a few challenges have emerged. 
First, around program design. Grantees in the reentry field are 
becoming increasingly familiar with the body of evidence about 
strategies that reduce recidivism, but they continue to 
struggle with translating these concepts into practice.
    The Second Chance Act is a strong step to providing the 
reentry field with guidance about smart program interventions, 
but it will take time to turn the battleship of corrections in 
a data-driven direction.
    Secondly, tracking recidivism. The Second Chance Act sets 
appropriately high expectations for sites to receive Federal 
funding to reduce recidivism, but grantees will need assistance 
understanding what to measure and how to obtain and routinely 
track quality information.
    BJA and the Resource Center will continue to work closely 
with grantees to measure the effects on recidivism, but it will 
take time.
    We appreciate your leadership and your work through Second 
Chance. It is a monumental step in changing how we address 
prisoner reentry. We hope you will reauthorize the program 
quickly to further advance the field at large and help expand 
our knowledge about reentry evidence and the practice of smart 
reentry strategies nationwide.
    Thank you.
    [The prepared statement of Ms. Duran appears as a 
submission for the record.]
    Chairman Leahy. Thank you very much.
    As our next witness is from Rhode Island, I will turn to 
the person who knows the most about Rhode Island on this 
committee, Senator Whitehouse.
    Senator Whitehouse. Thank you, Mr. Chairman. It is a great 
honor for me to have the chance to introduce Sol Rodriguez, 
and, also, to recognize A.T. Wall, who is our Director of 
Corrections, and who has come down to be with Sol Rodriguez 
today.
    Sol has a long and distinguished career with community 
organizations in Rhode Island. She has run the group that is 
now called Open Doors for, I think, 8 years. Before that, it 
was called the Family Life Center. I go way back with this 
organization and was present at the creation.
    I think the thing that is so great about today is that the 
Director of Corrections came down to be with her today. It 
shows how closely integrated our corrections infrastructure is 
with our community infrastructure, and it is extraordinarily 
important, because there are certain neighborhoods in Rhode 
Island that just get hit particularly hard by the outflow of 
the prison system.
    There are neighborhoods where one in four 18 to 35-year-
olds on the street are under the supervision of the Department 
of Corrections. So you can imagine how many people that 
neighborhood is forced to absorb week after week, month after 
month.
    So I am delighted to welcome to her to this committee and 
to share her testimony with all of us.
    Welcome, Sol, and thank you for--Ms. Rodriguez, and thank 
you for being here.

  STATEMENT OF SOL RODRIGUEZ, EXECUTIVE DIRECTOR, OPEN-DOOR, 
                    PROVIDENCE, RHODE ISLAND

    Ms. Rodriguez. Thank you, Senator Leahy, distinguished 
members of the committee. My name is Sol Rodriguez, and I want 
to thank you for inviting me here to speak.
    I am the Executive Director of OPEN-DOOR, a nonprofit 
organization based on Rhode Island.
    OPEN-DOOR was establish in 2002 with the sole purpose of 
working with prisoner coming home from incarceration and their 
families. We have a long history of supporting this prisoner 
reentry program, and we're faimliar with the many challenges 
they face.
    Successful reentry is difficult, even for those people who 
are deeply committed to the process. Everyone who comes to see 
us is on the threshold of change. However, without critical 
resources, their chances of success are slim to none.
    In Rhode Island, individuals are given no more than a bus 
ticket back home once they are released from prison. People 
coming out of the prison system return to fractured 
relationships, little or no financial resources, few job 
prospects, and because of their criminal record, they face 
legal discrimination in employment and in housing, and mounting 
debt.
    Organizations that serve similar populations leave out this 
population because of their need to meet performance metrics 
and the perception that they pose risk and that they cannot 
achieve as other groups can.
    Even organizations that we work with often find it 
difficult to provide services for this population due to their 
multi layered needs. Throughout the years, OpenDoors has 
managed to open the doors for many of our folks who are coming 
home.
    Many of our clients have doors slammed on them over and 
over again and, as you can imagine, this becomes fairly 
demoralizing. Incarceration rates in this country continue to 
escalate at an alarming pace. There are nearly 2.4 million 
people in prison, one out of 31 individuals is under some kind 
of supervision.
    As a country, we spend $69 billion on prisons, and Rhode 
Island spends an average of $40,000 per inmate.
    Despite this, people continue to return back to the prison 
system at disturbing rates. Over 62 percent of people released 
from Rhode Island prisons return back within 3 years.
    Another consequence is the loss of revenue to the state and 
their lack of participation in work during the peak age, of 21 
to 35. The long-term consequence is that these individuals will 
not be able to pay into Social Security. If this trend 
continues, we will bear the financial burden of these people 
for a long time to come with services, such as services for the 
homeless, urgent medical care, public assistance to families 
and costs associated to children in state custody, as well as 
the cost of public safety.
    We need to act to address this situation, as it isn't going 
to go away. There is proof that recidivism can be successfully 
remediated, as in Michigan, where significant investment by the 
state reduced the recidivism rate from 55 percent to 38 
percent.
    But a lot of states do not have the resources to do what 
Michigan did. At OPEN-DOOR, we are attempting to find some 
solution to this problem. We offer a one-stop center for people 
coming out of prison, and we see approximately, 1000 people a 
year, that come to our Center for the first time. This isn't 
counting the people who continue to come back for services.
    We prepare individuals for release from incarceration at 
the adult correctional facility and we offer programs, like 
employment and housing preparedness, job search, financial 
literacy, one-on-one mentoring, civic participation, financial 
literacy, computer classes, and recovery services.
    We work to build relationships with these individuals, or 
provide a safe place for them in the community; so that when 
they come out, they are not drawn back to those previous 
relationships and destructive social environment that they came 
from.
    We provide mentoring through the Second Chance Act; this 
includes relationship-building activities and community events 
and support groups, and one-on-one mentoring.
    Our mentors and mentees receive extensive training and 
assessment in order to make successful matches.
    We started our program back in January 2010 and to date, we 
have 10 matches. Many of our mentors are formerly incarcerated 
people who have been doing well and want to be mentors to other 
people. And so we screen folks to make sure that they are doing 
very well in the community before we they are allowed to be 
mentors.
    But we are looking for mentors in the community that are 
business people, and are employers. We want to begin to create 
those relationships long term.
    In closing I want to make some recommendations. I want to 
recommend that you need to continue to allocate funding, 
specifically for formerly incarcerated individuals. Direct 
finding for this population is critical.
    Commitment to this issue long term critical, as well. This 
issue is not going to go away, and we need the money long-term 
and the resources long-term.
    Allow for nonprofits like us to receive direct funding to 
do other things besides mentoring. It is pretty clear that a 
good job is the single largest factor in determining someone's 
success out here, and to stay out of prison.
    Addressing the pipeline into prison is another critical 
need. We need to begin to look at innovative programs that 
really help support people and provide essential interventions 
before they go to prison, so that we can address the flow into 
to prison.
    I want to thank you very much for your consideration and 
support, not just for the work that we do, but for the work 
around the country.
    Thank you very much.
    [The prepared statement of Ms. Duran appears as a 
submission for the record.]
    Chairman Leahy. Thank you very much. I neglected to do it 
before. I was reading the testimony prior to the hearing. I was 
struck with a number of the case studies that Mr. Pallito had. 
And an article without objecting, I will put those additional 
things, the case studies and all as intended. They bring home 
what real people are and what real people do, and I will put 
that in the record as part of your testimony.
    Thank you. And for the record, they were case studies of 
offenders that had particularly violent past histories.
    Chairman Leahy. That is what I understand.
    Now, David Muhlhausen is a senor policy analyst at the 
Heritage Foundation Center for Data. He has testified before 
Congress on several previous occasions about law enforcement 
grant programs, particularly the COPS program.
    One of the staff suggested you are here so often, we should 
give you one of these permanent name plates.
    He received a Ph.D. in public policy from the University of 
Maryland Baltimore County, bachelor's degree in political 
science. Just to say, he is from Forestburg. He is currently an 
adjunct professor of public policy at George Mason. Please go 
ahead, Doctor.

 STATEMENT OF DAVID MUHLHAUSEN, SENIOR POLICY ANALYST, CENTER 
   FOR DATA ANALYSIS, THE HERITAGE FOUNDATION, WASHINGTON, DC

    Mr. Muhlhausen. Thank you. My name is David Muhlhausen. I 
am a senior policy analyst in the Center for Data Analysis at 
the Heritage Foundation. I thank Chairman Patrick Leahy, 
Ranking Member Jeff Sessions, and the rest of the Committee for 
the opportunity to testify today on the Second Chance Act.
    The views that I express in this testimony are my own and 
should not be construed as representing any official position 
of the Heritage Foundation.
    Congress' desire to weigh in on prisoner reentry programs. 
In 2008 alone, over 735,000 prisoners were released back into 
society. Federal, state and local governments need to operate 
effective reentry programs. Preventing former prisoners from 
returning to prison is a worthy goal.
    When Congress first passed the Second Chance Act I in 2008, 
little was known about the effectiveness of prisoner reentry 
programs. The same holds true for today. We simply do not have 
enough knowledge about what works and what does not work.
    A major goal of reauthorizing the Second Chance Act I 
should be to greatly enhance our knowledge about the 
effectiveness of these programs. For this reason, I will 
outline five years to the successful evaluation of these 
programs.
    First and foremost, Congress needs to expressly mandate in 
the reauthorization of the Act the experimental evaluation of 
prisoner reentry programs. By experimental evaluation, I mean 
evaluation that uses random assignment to select individuals 
for treatment and for other individuals to go into control 
groups. This method is considered the gold standard, because 
random assignment is most likely to yield valid estimates of 
program impact. Less rigorous designs yield less reliable 
results.
    When Congress creates programs, especially state and local 
programs, we need to make sure that these programs are--when 
they are evaluated, they undergo large-multisite evaluations, 
so that is my second point.
    These programs funded by the Federal Government are not 
funded, are not funded. They are implemented across the entire 
Nation. Because Federal grants fund agencies and programs 
across the Nation, we need to have multisite national large-
scale evaluations.
    Third, Congress needs to provide instructions on the types 
of outcome measures that will be used to assess effectiveness. 
When assessing the impact of reentry programs, the most 
effective measure or the most important measure is recidivism. 
While intermediate measures, such as finding employment and 
housing, are important, these outcomes are not the ultimate 
goal of reentry programs.
    If former prisoners continue to commit crimes after being 
released from prison, then successful; intermediate measures, 
while important, still matter little to judging how effective 
programs are.
    Fourth, Congress needs to institute procedures that will 
encourage government agencies, often possessing entrenched 
biases against experimental evaluation, to carry out these 
studies.
    One recommended method is that not later than 1 year afer 
the preauthorization of the Act and annually thereafter, the 
Departments of Justice and Labor be required to individually 
submit to Congress a report on the progress their departments 
are making in evaluating the programs authorized under the Act.
    Thirty days after the report is submitted to Congress, it 
should be made available on the department Websites.
    Last, Congressionally mandated evaluations, upon 
completion, must be submitted to Congress in a timely manner. 
Thirty days after any evaluation is submitted to Congress, they 
should be made available, also, on the department's Websites.
    Prisoner reentry programs need to be rigorously evaluated 
to determine their effectiveness at reducing recidivism. I 
believe the need for more evaluations transcends political 
party lines. Both Democrats and Republicans should agree on 
this issue.
    Policymakers should not implement prisoner reentry 
programs, because advocates for Federal funding believe these 
programs are effective. There has to be a solid base, a 
scientific knowledge demonstrating that these programs work. 
Thus, Congress needs to do more to ensure that the reentry 
programs it funds are rigorously evaluated.
    That is all. Thank you.
    [The prepared statement of Mr. Muhlhausen appears as a 
submission for the record.]
    Senator Whitehouse [Presiding.] Thank you, Mr. Muhlhausen.
    Our next witness is Howard Husock. He is the Vice President 
of Policy Research and Director of the Social Entrepreneurship 
Initiative at the Manhattan Institute.
    Mr. Husock has been widely published on housing and urban 
policy issues, and has spoken in policy forums sponsored by the 
Federal Government and the States of California and 
Massachusetts.
    Prior to his time at the Manhattan Institute, Mr. Husock 
worked at Harvard University's Kennedy School of Government, 
and was a broadcaster and documentary filmmaker at WGBH in 
Boston, Massachusetts, which reaches into Rhode Island.
    Mr. Husock graduated from Boston University School of 
Public Communications and was later a fellow at Princeton 
University's Woodrow Wilson School of Public and International 
Affairs. And we welcome him to the committees.
    Mr. Husock.

 STATEMENT OF HOWARD HUSOCK, VICE PRESIDENT, POLICY RESEARCH, 
  MANHATTAN INSTITUTE FOR POLICY RESEARCH, NEW YORK, NEW YORK

    Mr. Husock. Thank you so much, Senator Whitehouse, Ranking 
Member Sessions, and members of the committee.
    In addition to the policy research we do at the Manhattan 
Institute, we've long tried to play a problem-solving role in 
social problems, especially as they affect our cities.
    In that context, we recently returned our attention to the 
daunting problem addressed in the Second Chance Act, that is, 
successful prisoner reentry, a goal we understand to be central 
to the safety of our cities and the restoration of healthy 
family life in households in which parents, often fathers, have 
been incarcerated.
    It is not a minor problem, not when 700,000 individuals are 
released from prison annually and 44 percent are re-arrested 
just within 1 year.
    It is an important problem, but at the same time, we 
believe that in reauthorization, the Second Chance Act can 
still be improved. And in that context, I'd like to share with 
you some reflections on the institute's experience in helping 
to establish, fund and operate a reentry program in cooperation 
with the city of Newark, New Jersey, whose results to date and 
the results of similar programs have convinced us that for such 
efforts to be successful, they must emphasize employment. We 
call it rapid attachment to work, and we believe that there are 
aspects of the way that rapid attachment program in Newark is 
funded, particularly ITSA, AART, EMT, use of matching private 
dollars and the way it's managed, particularly its emphasis on 
pay for performance among social service providers, which can 
all be useful elements of a reauthorized Second Chance.
    The Newark initiative began, when, in response to then the 
mention of prisoner reentry in 2006, his 2006 inaugural 
address, the Manhattan Institute approached Newark Mayor Cory 
Booker.
    We agreed to work together on a program for newly released 
ex-offenders. Staying out of trouble in the first few weeks, 
the mayor believed, was crucial and the employment can be the 
hub around which a non-criminal life can be organized.
    His vision has borne fruit. Thanks to $2 million in Federal 
funds, matched by $3 million in private philanthropic funds, a 
small portion of which has allowed the institute to provide 
loaned executive help to the city of Newark.
    Six agencies in Newark today compete with each other to 
help place those coming out of prison rapidly into jobs. They 
are proving successful, even in today's difficult economy; 58 
percent of the 1,000 plus program a intended seen to date have 
been placed in jobs with an hourly wage of more than $9 an 
hour. And to date, after more than a year, only 8 percent of 
all participants have been re-arrested.
    At the same time, crime in Newark, which historically has 
involved violence often between two individuals with criminal 
records, has dropped sharply and, in March, the city saw its 
first month in 40 years without a murder.
    Other work-oriented reentry programs are showing similar 
progress. In New York, the Ready, Willing and Able program, 
which includes employment as a central part of it, must be 
evaluated by a Harvard University sociologist who found that 3 
years after release, its clients have 30 percent fewer arrests 
than a comparison group.
    In addition, the Ready for Work Program, which was a 
Department of Labor model program, found that between 2003 and 
2006, recidivism in this work-focused program was reduced by 34 
to 50 percent.
    There is no accountabilty without clear results, however. 
And in Newark, in keeping with the best thinking on our 
performance management, we are tracking and comparing the 
placement records of individual job providers, job placement 
providers, and by tying compensation to results, we believe 
that we can affect improved performance.
    In other words, it is our view that there is an emerging 
formula for successful reentry, a formula based on work as 
intended, performance management, and private matching funds. 
And a reauthorized Second Chance Act, which gave top priority 
to demonstration projects, incorporating these approaches, 
could play a key role in influencing the billions spent by 
state corrections, parole and probation programs, which will 
continue to play the lead.
    There is one additional element which the Act could 
encourage, which has yet to be incorporated into reentry 
programs, but is also a significant barrier, and half of them 
owe back child support payments. It is a problem that only gets 
worse when they are in person.
    The typical prison parent owed $10,000 when he goes behind 
bars, $20,000 when he leaves, because wages can be garnished to 
pay child support. Such arrearage is a powerful deterrent to 
workforce participation.
    A reauthorized Second Chance Act, however, could encourage 
its demonstration programs to use these child support payments 
constructively by linking reductions in arrearage to getting 
and keeping a job; and, with the permission of either parent 
involved, playing a role in family life.
    America's criminal justice system, including reentry 
through parole, has historically been and will continue to be 
primarily the province of state government and current budget 
deficits leave little room for a Federal role.
    That is why it is especially important for a reauthorized 
Second Chance Act to support those model programs that could 
influence reentry practice broadly.
    The best way to do that, the Manhattan Institute believes, 
is to emphasize and encourage those programs focused on rapid 
attachment to work.
    Thank you very much.
    [The prepared statement of Mr. Husock appears as a 
submission for the record.]
    Chairman Leahy. Thank you very much.
    Commissioner, you talked about the Department of 
Corrections working with the cities and towns in Vermont. The 
largest one is 38,000 people, the smallest is just about 38 to 
try to get them to reintegrate.
    I know it is not easy. You are asking people to spend 
scarce time and resources to bring ex-offenders into the 
communities. How do you get communities to engage in this kind 
of reentry effort?
    Mr. Pallito. I think I would best describe it as an 
evolving conversation. It was a conversation that really 
started between the Department of Corrections and our local 
communities many, many years ago, and, through persistent and 
consistent messaging, we really tried to shift the attitude.
    Interestingly enough, the city of Barre, that you have 
mentioned that my wife is from, has an undue burden of 
corrections offenders that come and go within the city, and saw 
an opportunity to engage the Department of Corrections.
    So rather than keep the conversation about keep them out of 
our neighborhood, keep them out of our neighborhood--as one of 
the panelists mentioned earlier, 90 percent of offenders are 
coming back to communities, and that is a fact, 95 percent in 
some states.
    The city of Barre in Vermont----
    Chairman Leahy. So in other words, you are dealing with a 
reality, whether you want to or not.
    Mr. Pallito. Absolutely, absolutely, And so the city of 
Barre really has started to turn that conversation and engage 
the Department of Corrections. And I have gone to several 
community meetings. I would describe the first as I asked my 
wife to be my security guard on the way out to the second, 
where the mayor and I have forged a very positive relationship 
and we have partnered with the city.
    One of the messages that I have consistently said, as the 
commissioner and the deputy commissioner and the commissioner 
before me, is the State of Vermont is not going to solve this 
issue on its own. We need the community, we need community 
partners to step up, to be engaged, and to help us out with 
this issue.
    Chairman Leahy. Thank you. Ms. Duran, let me ask you. This 
morning, the Justice Department's Office of Inspector General 
released a report on the department's management of prisoners 
reentry program. They found the department did not adequately 
monitor and evaluate some of the reentry programs. They 
couldn't determine whether they were successful in reducing 
recidivism. So I hope the Justice Department will immediately 
be moving to consider and implement some of the IG's 
recommendations.
    Now, the good news is the inspector general's report 
focused on programs that were in place before the Second Chance 
Act. They said that the Second Chance Act was--that those 
programs are better designed, although it is too early to tell 
thoroughly.
    So what steps do you take to make sure, especially with 
this report, and I realize it just came out this morning, to 
make sure the Second Chance Act Grantees and those who 
administer them are doing it right?
    Ms. Duran. I think you are right that the Second Chance Act 
was a response to some of the design flaws we observed through 
SVORI and some of the other Federal reentry grant programs that 
have gone before, and we've had the opportunity to learn a lot 
from those previous initiatives and have incorporated those 
into the way that Second Chance is being implemented.
    For example Second Chance is a competitive grant effort. 
States and local governments, for demonstration projects, are 
required to engage in planning prior to receiving the award, 
and demonstrating their readiness to receive the Federal funds 
is key to being winning applicants. SVORI was a blanket grant 
program.
    Also, each state is different and needs to allow for the 
flexibility of their differences in terms of their populations 
that they are managing the size of their communites. Vermont is 
clearly different than California.
    Second Chance provides an opportunity for states to be 
innovative in the way that they respond to their unique needs 
with their population and with their community, and we have 
given those grantees that flexibility through Second Chance.
    Chairman Leahy. Speaking of what she said about the states 
being different, Commissioner, if I can go back to you just for 
a moment.
    You must talk with your counterparts in other parts of the 
country, I assume.
    Mr. Pallito. Correct.
    Chairman Leahy. You probably both do. Do you find, and this 
may seem like an easy question, but I'm curious. Do you find 
any states you talk with where they say, ``Hey, we're all set 
up. We've got plenty of state funding to do the kind of 
programs we want.
    Mr. Pallito. Absolutely not. I think every Department of 
Corrections in the country is under constant budget pressure. 
One of my personal frustrations as the Commissioner of 
Corrections is as the incarcerated population grows, the easy 
answer to a budget reduction is to cut the Department of 
Corrections staff or close a facility that is then responsible 
for that incarceration. Then the liability, in the end, 
frankly, lands with the Commissioner's office. That's my 
personal opinion.
    So unless we are more creative in terms of how we use 
incarceration, to make sure that on the front end, we are very 
stringent in what we use, and then on the back end to make sure 
that we do very comprehensive offender reentry planning so that 
we do not just simply let offenders out and they cycle back in.
    But all states, I think, face the same exact challenge.
    Chairman Leahy. Well, keep talking to our mayors and our 
boards of aldermen and tell them.
    Mr. Pallito. I will, as long as they will keep listening to 
me.
    Chairman Leahy. Thank you.
    Jeff.
    Senator Sessions. Thank you, Mr. Chairman. This has been a 
subject of tremendous national interest for a long time. It is 
not the first time it has been brought up.
    In fact, the 1960s and 1970s, there was a belief that 
prison was no good for anybody. Judges, really, a lot of them 
just refused to send people to jail. Crime rates surged, and it 
took into the 1980s for the Nation to realize that our hopes 
and wishes and dreams did not match reality.
    I remember a study in the late 1970s that I kept in my desk 
when I was United States attorney that dealt with these reentry 
programs and recidivism rates, and the net of it was, I will 
summarize, it compared a prison in which it--it was a very 
Spartan prison, very little recreation, job training, benefits, 
and one that had all kinds of education and other programs, and 
the recidivism rate was the same.
    That is hard to believe, but, in fact, if we knew how it 
worked, why have we not already figured out how to do it? It is 
very hard, very hard.
    Mr. Husock, you suggest that you got a 30-percent 
reduction. Even your numbers probably make me a bit suspicious. 
But if you got a 20-percent reduction in recidivism rate, I 
would give you an A, if you could maintain that and replicate 
that in another place. That is tremendous, really, if we get 20 
percent fewer people recidivating, having to go to jail and be 
put in jail and cannot support their families, cannot hold down 
a job.
    And my instincts are that this thing of giving a person a 
job immediately out of prison would not be of benefit. That 
makes sense to me.
    Well, we create these programs. Here, the Chairman made 
reference to the Department of Justice programs. The inspector 
general audit came out today. Not a good audit. Bad. This is 
what they found. The IG found that the OJP did not adequately 
define key terms essential for determining whether program 
goals are met; did not require grantees to identify baseline 
recidivism rates needed to calculate changes in recidivism; 
and, did not analyze performance measurement data.
    As a result of these design flaws, neither OJP nor the 
inspector general could definitively determine the 
effectiveness of OJP's grant programs in reducing recidivism. 
Well, this is not good.
    Ms. Duran, you mentioned the Second Chance Act that we did 
2 years ago was different, but they said the same design flaws 
the report does for existing ``it.''
    Mr. Muhlhausen, do you know how many existing reentry 
programs are funded by the Federal Government? Do we have any 
idea of how many state programs exist out there? And in your 
opinion, are they effectively monitored so we can determine 
what actually works and what clearly does not work?
    Mr. Muhlhausen. Well, I think getting a hard count of how 
many reentry programs are out there is going to be a little 
difficult. But I would say that this report does not inspire 
confidence in Office of Justice Programs.
    The fact that they are giving out money without effective 
performance monitoring protocols in place, no clear definition 
of how to measure recidivism, these are basic things that 
should be done. And that is why I think that----
    Senator Sessions. One of the things that I complained about 
is that these programs get to pick their population. They can 
pick the target population.
    It is kind of like an insurance company, it seems to me, 
that cherry-picks healthier patients.
    Is that the way you would analyze that concern?
    Mr. Muhlhausen. Well, yes. I have seen this happen with 
Department of Labor job training programs, where it is called 
creaming, where they find--they select individuals that they 
are going to monitor that are most likely to succeed and the 
individuals who are the hard cases they sort of do not track. 
And so they end up inflating their performance data.
    So that is why I think we need to have the National 
Institute of Justice do a lot of multisite, randomized 
experiments to find out whether these programs work.
    Senator Sessions. I agree, because the states are spending 
billions, as you said, Mr. Husock, on these programs and our 
money is chicken feed compared to what states are spending.
    So if we could help them identify programs that actually 
work, even if it is 10, 20 percent better than their current 
program, and they could apply their resources more effectively, 
this would be a smart role for the Federal Government. Would 
you agree, Mr. Husock?
    Mr. Husock. I could not agree more. And when we talk about 
how many reentry programs are out there, every state has got 
divisions of parole. That is a reentry program. Why do we not 
want to spend the money that we are spending already more 
effectively?
    For instance, should not parole officers be judged by not 
how many people they lock up again, but how many they place in 
employment? Maybe we want to change the way we manage the core 
programs that we are already running.
    But certainly, I think the Second Chance Act can point in 
the right direction, but it is never going to substitute.
    Senator Sessions. My time is up. And I would just say I 
thank my colleagues, who are interested in this subject. It has 
just sort of been an interest of mine ever since I have been 
prosecuting cases from the mid-1970s on, and 90-percent of the 
people are convicted that go to trial.
    The question is how long they serve and what is going to 
happen to them. So I think we are striving to accomplish 
something worthwhile. I would like to see us focus more on 
identifying what works through rigorous focus and help our 
states by giving that information so they can better utilize 
the resources that they have.
    Thank you, Mr. Chairman.
    Chairman Leahy. Thank you very much.
    Senator Whitehouse.
    Senator Whitehouse. Mr. Chairman, since I will be presiding 
at the end, I am here until the bitter end, I would be 
delighted to yield to Senator Franken.
    Chairman Leahy. Senator Franken.
    Senator Franken. I would like to thank you, Mr. Chairman, 
and thank you, Senator Whitehouse. This also has been of great 
interest to me for a long time.
    And I want to thank you, Mr. Muhlhausen, for urging that we 
have more scientific look and more comprehensive data on this, 
because that is--I just think we should do that on everything, 
because that is going to pay off to see what works, because we 
really kind of do not have a choice, do we?
    What percentage of--I think, Mr. Pallito said the number 
was 90 to 95 percent--is that right? And I think, Mr. 
Muhlhausen, you said that releasing offenders into society 
increases crime. Now, you are not suggesting we just do not 
release people, are you?
    Mr. Muhlhausen. No, no. I am just saying, it is just a 
statement of fact that we have high recidivism rates, and so 
the national consequence of releasing offenders from prison is 
we are going to get more crime.
    Senator Franken. But the alternative is just locking them 
up and throwing away the key, and we do not do that either, do 
we?
    Mr. Muhlhausen. No, we do not. Obviously, what I would say 
is that while serious and violent offenders should serve 
lengthy amounts of time in prison----
    Senator Franken. Obviously.
    Mr. Muhlhausen. [continuing]. A lot of people who are 
released deserve to get some sort of help in transitioning back 
into society and I think, hopefully, if we identify what works 
and we can replicate what works, we will have some good things 
to talk about in future reauthorization of the Act.
    Senator Franken. There is another premise here that you 
could look at, too, which is maybe the fewer prisoners we have 
in the first place, that the less increase in crime there would 
be when you release less prisoners.
    What I am kind of getting at is maybe--do you understand 
what I am saying? I am saying that maybe, say, you did early 
childhood education. So we invested in people early in life, 
and so there were fewer criminals, or maybe even caught 
juvenile, youth offenders earlier.
    Ms. Duran, in your testimony, you outlined several programs 
funded by the Second Chance Act, including those that assist 
youth offenders with histories of substance abuse and mental 
health needs.
    Can you talk more about specifically which services work 
best for this population both during incarceration and after?
    Ms. Duran. I think it is very important that step, when 
trying to change the likelihood that someone is going to commit 
a crime in the future, that we have a good understanding of 
what the risk and needs are of that individual. And the most 
important thing that we can do is match their risk and their 
needs to the services that are going to help them change their 
behavior and make different choices when they come back home.
    Certainly, critical services that have shown to make a 
difference are effective substance abuse treatment and mental 
health services, both during incarceration and upon release.
    It is most important that these services are delivered in 
the community, where they have to struggle with sobriety and 
maintaining a crime free life.
    As Mr. Husock also described, rapid attachment to 
employment is also critically important. The Second Chance Act 
gives grantees the flexibility to design their programs to 
target the services and supports that they feel will make a 
difference for their population based on what they know about 
their risks and needs of who they are working and be able to 
fund those programs and put them in place with their grant.
    Senator Franken. I do not know about--Senator Sessions has 
left. I do not know about the study he carries around and 
whether it would meet Mr. Muhlhausen's very, very high degree 
of rigor. There is no way of knowing, is there?
    In 2008, the Minnesota Department of Corrections enacted a 
pilot reentry program, called the Minnesota Comprehensive 
Offender Reentry Program, or MCORP. MCORP provides its clients 
help in finding a job, housing assistance, chemical abuse 
treatment and a variety of other services.
    It is still a premium program, but results from the first 
year are incredibly encouraging. They have reduced re-arrest 
rates by 37 percent.
    I was out for Husock's testimony and I am sorry about that. 
But I think we have found things that work and meanwhile, there 
are prisoners--I am going to end this soon--there are prisoners 
who are getting out tomorrow and the next day and the next day 
and the next day. They are getting out.
    And I agree with Dr. Muhlhausen that we have to do science-
based research on this. But in the meantime, they are getting 
out. And in the meantime, let us use what seems to be 
anecdotally working.
    And I am just going to wrap up right now, but I would like 
to--I am on the Help Committee and I want to do a hearing on 
early childhood education. And what I want--I do not want to 
have the largest prison population in the world. And, yes, Dr. 
Muhlhausen, we have recidivism; and, yes, when You release 
prisoners, there is more crime.
    But I think the alternative starts very, very early. But 
today we are talking about what works on recidivism, and I 
thank you all for your work.
    Thank you, all, all of you, for your work.
    Senator Whitehouse. Thank you, Senator Franken.
    Could you, Ms. Rodriguez, give us your take on what 
measures are appropriate to evaluate the effectiveness of the 
program that OpenDoors manages and what improvements in 
measurement would you recommend from where you are?
    Ms. Rodriguez. I very much agree with Mr. Muhlhausen about 
more scientific, more rigorous studies with regards to 
recidivism.
    We actually do administer a criminogenic needs and risk 
management and risk assessment, for those people in the 
mentoring program.
    We administer it when they first get involved in the 
program and we will administer it a year from now to see how 
effective--whether we have been able, to both the risk and the 
need of the individual.
    We also track whether people are re-incarcerated.
    Our project is quite small, so we're able to track re-
incarceration. We do that with many of our programs. 
Unfortunately, we do not have the capacity internally to do a 
scientific sort of data analysis of recidivism in our state, 
which I think is pretty important to do, but I think most 
states just do not have that capacity or resources.
    So putting some resources in that would be really helpful, 
I think we all welcome that sort of analysis. It would give us 
some sense of how things are working.
    All I can say is we worked very much--we are small states. 
We see a lot of people at our--I see a lot of people multiple 
times. I see people trying. All I can talk about without the 
science behind it is how hard it is for people and how hard 
they try.
    So we have been working hard with these individuals, but we 
would welcome a scientific study of recidivism.
    Senator Whitehouse. Ms. Duran, one of the--I'm a big 
supporter of and was, as I said earlier, in kind of at the 
creation of the Famly Life and traveled out of state to visit 
other places as we were working with some of the African-
American churches to try to get this underway.
    The objection that comes is that these people are 
criminals. They have broken the social contract. Why should we 
make any particular effort on their behalf? There are two 
responses to that that I have heard. One is that from a cost 
perspective, it is in everybody's interest to try to avoid re-
incarceration. Whether or not you particularly like the 
individual, you are better off if they are working and paying 
taxes than if they are incarcerated at the ACI and absorbing 
your tax dollars.
    The second is that the way in which offenders emerge from 
our prisons and get distributed among our neighborhoods is far 
from even. There are particular neighborhoods that receive a 
real onslaught of returning, reentering prisoners. And for the 
sake of the people in those neighborhoods, forget the people 
who are returning, for the sake of the people who are in those 
neighborhoods and who are law abiding, it is important that 
there be the social services so that they can continue to have 
a safe and orderly life and deal with the issues that a very 
big returning formerly incarcerated population presents.
    Would you evaluate for me those thoughts and add any that 
you would care to add?
    Ms. Duran. I think you are right. I mean, at the end of the 
day, successful reentry is about what happens in those 
neighborhoods and in those communities. And this is a complex 
social challenge.
    Senator Whitehouse. And to the taxpayer, right?
    Ms. Duran. Yes. Absolutely. Certainly, getting communities 
involved in coming up with creative and innovative solutions to 
reducing crime in their neighborhoods and their communities is 
a critical part of what will make for effective reentry 
planning.
    It has to start with the communities, in partnership with 
Departments of Corrections and community supervision agencies. 
And I think Vermont and Commissioner Pallito described a very, 
very great example of the way the community can work with state 
and local government and corrections agencies to come together 
on these challenges, because no one neighborhood and no one 
government agency can do it alone.
    Second Chance has set a very clear example, requiring this 
type of collaboration to be in place prior to submitting grant 
applications, which I think is a strong step in sending the 
message that the collaboration is essential, because this 
challenge is so enormous.
    Senator Whitehouse. We have talked a lot about the metrics 
and the statistics and the measurements demographically during 
the course of this hearing. The time of the hearing is 
concluding.
    What I would like to do is ask Ms. Rodriguez, if you would, 
to end on a note of what the possibilities are here; and, if 
you do not mind, you know Andres Idarraga (ph)?
    Ms. Rodriguez. Yes, I do.
    Senator Whitehouse. Would you mind relating for the record 
here, just briefly, his story, how he came to you and where he 
ended up?
    Ms. Rodriguez. Andres Idarraga is a young man who spent 
about 7 years in prison. He had a pretty extensive criminal 
history prior to his incarceration, but he was a very bright 
young man.
    We met Andres when he was released from prison. He might 
have been out about 6 months. We were working, actually, in the 
office to restore voting rights for people on probation and 
parole, and Andres was somebody who was not going to be able to 
vote for 30 years.
    So he would be 60 when he could vote, and he was very 
interested in voting and interested in getting involved in the 
work that we were doing.
    Eventually, we ended up hiring Andres, who was actually a 
URI student. Subsequently, Andres applied to Brown and was 
accepted to Brown, received a bachelor's degree from Brown and 
is currently going to Yale Law School.
    Andres is one guy. He is a pretty amazing guy, but there 
are many young men like Andres. I have to say, I was just 
talking about another young man who is headed to law school and 
who is also one of ours who has come through the center and we 
have helped.
    There is so much potential among these young men and most 
of them are relatively young. So turning our backs on them is--
--
    Senator Whitehouse. So it is a fair point to make, in your 
experience anyway, that in addition to the sort of negative 
argument of preventing future bad behavior and preventing the 
cost of recidivism, there are some real scars in this.
    So there are some real stars in this surprising population 
who can, when they turn their lives around, accomplish great 
things. There are some extraordinary people that are in our 
prison systems with extraordinary talents, and we need to 
harness those talents and encourage those talents and help 
those people achieve what they can achieve.
    This is part of what we do. We really try to provide them 
the space and believe in them so that they can continue to 
improve their lives. And Andres is one young man, but there are 
many young men in Rhode Island and I'm sure across the country.
    So these services are critical. Yes, we need to measure 
them. But they are critical services, and I believe we have no 
choice, really. We have no choice as a society. They are coming 
back to our communities. They are coming back to families. And 
we are just creating more of a burden on families and 
communities if we do not help them become productive members of 
society.
    Senator Whitehouse. Well, I appreciate very much everyone's 
testimony here today.
    We will keep the record of this hearing open for 1 week. So 
if anyone wishes to supplement their testimony or provide 
additional testimony or comments into the proceeding, they have 
that 1 week to do so.
    I am grateful to those of you who have taken the trouble to 
come here. Some of you have traveled some distance to come 
here. This has been very helpful. I think this is a vitally 
important issue for us to address.
    To digress just for a minute, when you think about what we 
spend on incarcerating people and when you think about what we 
spend policing the general population and when you think that 
the real kind of crux was where those people come out of the 
issue population, that should be kind of a gap where we have to 
struggle for funding when so much tax revenue goes to support 
our prison system and our general policing.
    I think it is a wise investment and we look forward to 
trying to make that investment as smart as we can make it.
    Thank you all very much. The hearing is adjourned.
    [Whereupon, at 3:54 p.m., the hearing was concluded.]
    [Questions and answers and submissions for the record 
follow.]
[GRAPHIC] [TIFF OMITTED] 64378.001

[GRAPHIC] [TIFF OMITTED] 64378.002

[GRAPHIC] [TIFF OMITTED] 64378.003

[GRAPHIC] [TIFF OMITTED] 64378.004

[GRAPHIC] [TIFF OMITTED] 64378.005

[GRAPHIC] [TIFF OMITTED] 64378.006

[GRAPHIC] [TIFF OMITTED] 64378.007

[GRAPHIC] [TIFF OMITTED] 64378.008

[GRAPHIC] [TIFF OMITTED] 64378.009

[GRAPHIC] [TIFF OMITTED] 64378.010

[GRAPHIC] [TIFF OMITTED] 64378.011

[GRAPHIC] [TIFF OMITTED] 64378.012

[GRAPHIC] [TIFF OMITTED] 64378.013

[GRAPHIC] [TIFF OMITTED] 64378.014

[GRAPHIC] [TIFF OMITTED] 64378.015

[GRAPHIC] [TIFF OMITTED] 64378.016

[GRAPHIC] [TIFF OMITTED] 64378.017

[GRAPHIC] [TIFF OMITTED] 64378.018

[GRAPHIC] [TIFF OMITTED] 64378.019

[GRAPHIC] [TIFF OMITTED] 64378.020

[GRAPHIC] [TIFF OMITTED] 64378.021

[GRAPHIC] [TIFF OMITTED] 64378.022

[GRAPHIC] [TIFF OMITTED] 64378.023

[GRAPHIC] [TIFF OMITTED] 64378.024

[GRAPHIC] [TIFF OMITTED] 64378.025

[GRAPHIC] [TIFF OMITTED] 64378.026

[GRAPHIC] [TIFF OMITTED] 64378.027

[GRAPHIC] [TIFF OMITTED] 64378.028

[GRAPHIC] [TIFF OMITTED] 64378.029

[GRAPHIC] [TIFF OMITTED] 64378.030

[GRAPHIC] [TIFF OMITTED] 64378.031

[GRAPHIC] [TIFF OMITTED] 64378.032

[GRAPHIC] [TIFF OMITTED] 64378.033

[GRAPHIC] [TIFF OMITTED] 64378.034

[GRAPHIC] [TIFF OMITTED] 64378.035

[GRAPHIC] [TIFF OMITTED] 64378.036

[GRAPHIC] [TIFF OMITTED] 64378.037

[GRAPHIC] [TIFF OMITTED] 64378.038

[GRAPHIC] [TIFF OMITTED] 64378.039

[GRAPHIC] [TIFF OMITTED] 64378.040

[GRAPHIC] [TIFF OMITTED] 64378.041

[GRAPHIC] [TIFF OMITTED] 64378.042

[GRAPHIC] [TIFF OMITTED] 64378.043

[GRAPHIC] [TIFF OMITTED] 64378.044

[GRAPHIC] [TIFF OMITTED] 64378.045

[GRAPHIC] [TIFF OMITTED] 64378.046

[GRAPHIC] [TIFF OMITTED] 64378.047

[GRAPHIC] [TIFF OMITTED] 64378.048

[GRAPHIC] [TIFF OMITTED] 64378.049

[GRAPHIC] [TIFF OMITTED] 64378.050

[GRAPHIC] [TIFF OMITTED] 64378.051

[GRAPHIC] [TIFF OMITTED] 64378.052

[GRAPHIC] [TIFF OMITTED] 64378.053

[GRAPHIC] [TIFF OMITTED] 64378.054

[GRAPHIC] [TIFF OMITTED] 64378.055

[GRAPHIC] [TIFF OMITTED] 64378.056

[GRAPHIC] [TIFF OMITTED] 64378.057

[GRAPHIC] [TIFF OMITTED] 64378.058

[GRAPHIC] [TIFF OMITTED] 64378.059

[GRAPHIC] [TIFF OMITTED] 64378.060

[GRAPHIC] [TIFF OMITTED] 64378.061

[GRAPHIC] [TIFF OMITTED] 64378.062

[GRAPHIC] [TIFF OMITTED] 64378.063

[GRAPHIC] [TIFF OMITTED] 64378.064

[GRAPHIC] [TIFF OMITTED] 64378.065

[GRAPHIC] [TIFF OMITTED] 64378.066

[GRAPHIC] [TIFF OMITTED] 64378.067

[GRAPHIC] [TIFF OMITTED] 64378.068

[GRAPHIC] [TIFF OMITTED] 64378.069

[GRAPHIC] [TIFF OMITTED] 64378.070

[GRAPHIC] [TIFF OMITTED] 64378.071

[GRAPHIC] [TIFF OMITTED] 64378.072

[GRAPHIC] [TIFF OMITTED] 64378.073

[GRAPHIC] [TIFF OMITTED] 64378.074

[GRAPHIC] [TIFF OMITTED] 64378.075

[GRAPHIC] [TIFF OMITTED] 64378.076

[GRAPHIC] [TIFF OMITTED] 64378.077

[GRAPHIC] [TIFF OMITTED] 64378.078

[GRAPHIC] [TIFF OMITTED] 64378.079

[GRAPHIC] [TIFF OMITTED] 64378.080

[GRAPHIC] [TIFF OMITTED] 64378.081

[GRAPHIC] [TIFF OMITTED] 64378.082

[GRAPHIC] [TIFF OMITTED] 64378.083

[GRAPHIC] [TIFF OMITTED] 64378.084

[GRAPHIC] [TIFF OMITTED] 64378.085

[GRAPHIC] [TIFF OMITTED] 64378.086

[GRAPHIC] [TIFF OMITTED] 64378.087

[GRAPHIC] [TIFF OMITTED] 64378.088

[GRAPHIC] [TIFF OMITTED] 64378.089

[GRAPHIC] [TIFF OMITTED] 64378.090

[GRAPHIC] [TIFF OMITTED] 64378.091

[GRAPHIC] [TIFF OMITTED] 64378.092

[GRAPHIC] [TIFF OMITTED] 64378.093

[GRAPHIC] [TIFF OMITTED] 64378.094

[GRAPHIC] [TIFF OMITTED] 64378.095

[GRAPHIC] [TIFF OMITTED] 64378.096

[GRAPHIC] [TIFF OMITTED] 64378.097

[GRAPHIC] [TIFF OMITTED] 64378.099

[GRAPHIC] [TIFF OMITTED] 64378.100

[GRAPHIC] [TIFF OMITTED] 64378.101

[GRAPHIC] [TIFF OMITTED] 64378.102

[GRAPHIC] [TIFF OMITTED] 64378.103

[GRAPHIC] [TIFF OMITTED] 64378.104

[GRAPHIC] [TIFF OMITTED] 64378.105

[GRAPHIC] [TIFF OMITTED] 64378.106

[GRAPHIC] [TIFF OMITTED] 64378.107

[GRAPHIC] [TIFF OMITTED] 64378.108

[GRAPHIC] [TIFF OMITTED] 64378.109

[GRAPHIC] [TIFF OMITTED] 64378.110

[GRAPHIC] [TIFF OMITTED] 64378.111

[GRAPHIC] [TIFF OMITTED] 64378.112

[GRAPHIC] [TIFF OMITTED] 64378.113

[GRAPHIC] [TIFF OMITTED] 64378.114

[GRAPHIC] [TIFF OMITTED] 64378.115

[GRAPHIC] [TIFF OMITTED] 64378.116

[GRAPHIC] [TIFF OMITTED] 64378.117

[GRAPHIC] [TIFF OMITTED] 64378.118

[GRAPHIC] [TIFF OMITTED] 64378.119

[GRAPHIC] [TIFF OMITTED] 64378.120

[GRAPHIC] [TIFF OMITTED] 64378.121

[GRAPHIC] [TIFF OMITTED] 64378.122

[GRAPHIC] [TIFF OMITTED] 64378.123

[GRAPHIC] [TIFF OMITTED] 64378.124

[GRAPHIC] [TIFF OMITTED] 64378.125

[GRAPHIC] [TIFF OMITTED] 64378.126

[GRAPHIC] [TIFF OMITTED] 64378.127

[GRAPHIC] [TIFF OMITTED] 64378.128

[GRAPHIC] [TIFF OMITTED] 64378.129

[GRAPHIC] [TIFF OMITTED] 64378.130

[GRAPHIC] [TIFF OMITTED] 64378.131

[GRAPHIC] [TIFF OMITTED] 64378.132

[GRAPHIC] [TIFF OMITTED] 64378.133

[GRAPHIC] [TIFF OMITTED] 64378.134

[GRAPHIC] [TIFF OMITTED] 64378.135

[GRAPHIC] [TIFF OMITTED] 64378.136

[GRAPHIC] [TIFF OMITTED] 64378.137

[GRAPHIC] [TIFF OMITTED] 64378.138

[GRAPHIC] [TIFF OMITTED] 64378.139

[GRAPHIC] [TIFF OMITTED] 64378.140

[GRAPHIC] [TIFF OMITTED] 64378.141

[GRAPHIC] [TIFF OMITTED] 64378.142

[GRAPHIC] [TIFF OMITTED] 64378.143

[GRAPHIC] [TIFF OMITTED] 64378.144

[GRAPHIC] [TIFF OMITTED] 64378.145

[GRAPHIC] [TIFF OMITTED] 64378.146

[GRAPHIC] [TIFF OMITTED] 64378.147

[GRAPHIC] [TIFF OMITTED] 64378.148

[GRAPHIC] [TIFF OMITTED] 64378.149

[GRAPHIC] [TIFF OMITTED] 64378.150

[GRAPHIC] [TIFF OMITTED] 64378.151

[GRAPHIC] [TIFF OMITTED] 64378.152

[GRAPHIC] [TIFF OMITTED] 64378.153

[GRAPHIC] [TIFF OMITTED] 64378.154

[GRAPHIC] [TIFF OMITTED] 64378.155

[GRAPHIC] [TIFF OMITTED] 64378.156

[GRAPHIC] [TIFF OMITTED] 64378.157

[GRAPHIC] [TIFF OMITTED] 64378.158

[GRAPHIC] [TIFF OMITTED] 64378.159

[GRAPHIC] [TIFF OMITTED] 64378.160

[GRAPHIC] [TIFF OMITTED] 64378.161

[GRAPHIC] [TIFF OMITTED] 64378.162

[GRAPHIC] [TIFF OMITTED] 64378.163

[GRAPHIC] [TIFF OMITTED] 64378.164

[GRAPHIC] [TIFF OMITTED] 64378.165

[GRAPHIC] [TIFF OMITTED] 64378.166

[GRAPHIC] [TIFF OMITTED] 64378.167

[GRAPHIC] [TIFF OMITTED] 64378.168

[GRAPHIC] [TIFF OMITTED] 64378.169

[GRAPHIC] [TIFF OMITTED] 64378.170

[GRAPHIC] [TIFF OMITTED] 64378.171

[GRAPHIC] [TIFF OMITTED] 64378.172

[GRAPHIC] [TIFF OMITTED] 64378.173

[GRAPHIC] [TIFF OMITTED] 64378.174

[GRAPHIC] [TIFF OMITTED] 64378.175

[GRAPHIC] [TIFF OMITTED] 64378.176

[GRAPHIC] [TIFF OMITTED] 64378.177

[GRAPHIC] [TIFF OMITTED] 64378.178

[GRAPHIC] [TIFF OMITTED] 64378.179

[GRAPHIC] [TIFF OMITTED] 64378.180

[GRAPHIC] [TIFF OMITTED] 64378.181

[GRAPHIC] [TIFF OMITTED] 64378.182

[GRAPHIC] [TIFF OMITTED] 64378.183

[GRAPHIC] [TIFF OMITTED] 64378.184

[GRAPHIC] [TIFF OMITTED] 64378.185

[GRAPHIC] [TIFF OMITTED] 64378.186

[GRAPHIC] [TIFF OMITTED] 64378.187

[GRAPHIC] [TIFF OMITTED] 64378.206

[GRAPHIC] [TIFF OMITTED] 64378.207

[GRAPHIC] [TIFF OMITTED] 64378.208

[GRAPHIC] [TIFF OMITTED] 64378.209

[GRAPHIC] [TIFF OMITTED] 64378.211

[GRAPHIC] [TIFF OMITTED] 64378.212

[GRAPHIC] [TIFF OMITTED] 64378.213

[GRAPHIC] [TIFF OMITTED] 64378.214

[GRAPHIC] [TIFF OMITTED] 64378.215

                                 <all>

</pre></body></html>
